BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief in Opposition to Petition for Writ
of Certiorari in 20-1312, Xavier Becerra, Secretary of
Health and Human Services v. Empire Health
Foundation, for Valley Hospital Medical Center, was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day and e-mail service
to the following parties listed below, this 19th day of
May 2021:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioner
Daniel J. Hettich
Counsel of Record
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 626-9128
dhettich@kslaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

Anne M. Voigts
Matthew V.H. Noller
King & Spalding LLP
601 S. California Avenue
Suite 100
Palo Alto, CA 94304
(650) 422-6710
avoigts@kslaw.com
mnoller@kslaw.com

Counsel for Respondent

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

"-J

